Audit of USAID/Senegal’s Contracting Operations

7-685-05-003-P

January 31, 2005




                   Dakar, Senegal
January 31, 2005

MEMORANDUM

FOR:          USAID/Senegal Director, Olivier Carduner

FROM:         Acting RIG/Dakar, Nancy Toolan /s/

SUBJECT:      Audit of USAID/Senegal’s Contracting Operations
              (Report No. 7-685-05-003-P)

This is our final report on the subject audit. In finalizing the report, we
considered your comments on our draft report and have included your response
as Appendix II.

This report contains three recommendations. Based on appropriate action taken
by the Mission, management decisions have been reached on all three
recommendations. Final actions to close the three recommendations should be
coordinated with the Office of Management Planning & Innovation (M/MPI).

I appreciate the cooperation and courtesies extended to the members of our
audit team during this audit.




                                                                                1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                            5
Contents
           Background                                                    6

           Audit Objective                                               7

           Audit Findings

                   Did the Regional Contracting Office (RCO) located
                   at USAID/Senegal comply with USAID guidelines in
                   providing contracting support?                        7

                         Integrated Electronic Record Keeping System      8
                         Would Improve Reporting

                         Evaluations of Contractor Performance Need to    9
                         Be Completed and Submitted

                         Expired Instruments Need to Be Closed Out       10
                         in a Timely Manner


           Evaluation of Management Comments                             12

           Appendix I – Scope and Methodology                            13

           Appendix II – Management Comments                             15




                                                                              3
(This page intentionally left blank)




                                       4
Summary of   The objective of this audit was to determine if the Regional Contracting Office
Results      (RCO) located at USAID/Senegal complied with USAID guidelines in
             providing contracting support. (See page 7.)

             The RCO situated at USAID/Senegal followed USAID guidelines in providing
             regional contracting support for programs as it relates to bid solicitation and
             awarding of instruments1, certain aspects of contract administration, and
             instrument file maintenance. (See page 7.)

             However, the support provided by the RCO was encumbered by ineffective
             electronic record keeping. Several reports provided by the RCO contained
             errors and were not provided in a timely manner. These errors occurred
             because the RCO used several different electronic files to maintain
             information, with data being deleted from one file and manually re-entered in
             another, and because the RCO did not verify information when manually
             entering data. (See pages 8 and 9.)

             Nor did the RCO fully comply with requirements related to evaluations of
             contractor performance. It did not complete evaluations of contractor
             performance and submit them to the National Institutes of Health Contractor
             Performance System as required by the Federal Acquisition Regulation (FAR)
             and Automated Directive System (ADS). The evaluations were not completed
             because the office did not have procedures in place to ensure that they were
             completed and submitted. Because this information may be used to support
             future contract award decisions, the omission of the evaluations can potentially
             result in awarding of future contracts to undesirable parties. (See pages 9 and
             10.)

             Additionally, the RCO did not fully comply with certain requirements related
             to instrument closeouts. Specifically, RCO did not close out expired
             instruments in a systematic and timely manner as specified by the FAR and
             local Mission Order because it did not have procedures in place to monitor
             instrument closeouts. By not closing out expired instruments in a timely
             manner, the RCO cannot be certain that funds are de-obligated appropriately
             and made available for other use. (See pages 10 and 11.)

             In view of these findings, we recommend that the Mission develop and
             implement an integrated contract information system based on a master
             database; develop specific procedures that include assigning responsibility for
             completing and submitting contractor performance evaluations to the National
             Institutes of Health Contractor Performance System; and develop specific
             procedures that include assigning responsibility for actively monitoring and
             closing out expired instruments.


             1
                 Instrument is defined as a grant, cooperative agreement, or contract.
                                                                                           5
Background
The Regional   The Regional Contracting Office (RCO) in Dakar, Senegal provides
               procurement services to support USAID programs throughout West Africa.
               The RCO reports administratively to the Mission Director while receiving
               procurement guidance directly from the Office of Acquisition and Assistance,
               Washington. Besides Senegal, in fiscal year (FY) 2004, the office provided
               contracting support to several other USAID presence countries including
               Guinea, Sierra Leone, and Benin, as well as to the non-presence countries of
               Guinea Bissau and Cape Verde. As of July 2004, the RCO had an active
               portfolio2 of 66 instruments (those with remaining services and products to be
               delivered) with a total estimated value of $258 million.

               With the unexpected departure of the supervisory Contracting Officer, the
               RCO has been operating in a diverse region with a limited staff in carrying out
               contracting requirements to support USAID programs. At the time of the
               audit, the RCO was led by a seasoned Contracting Officer with a staff of two
               Acquisition and Assistance Specialists (a third had recently retired, but the
               position is expected to be refilled) and an Administrative Assistant.

               In addition to the RCO, which is involved throughout the entire contracting
               process from bid solicitations and awarding of instruments to closeouts,
               Cognizant Technical Officers (CTOs) play a critical role in the contract
               administration process. CTOs are at the frontlines functioning as the “eyes and
               ears” of the Contracting Officer, monitoring technical performance and
               financial status, and reporting potential and actual problems to the Contracting
               Officer. Therefore, it is imperative that CTOs stay in close communication
               with the Contracting Officer, providing any information that may impact
               contractual commitments and requirements.

               The Automated Directive System’s (ADS) 300 series provides procurement
               guidance for Agency activities and serves as the main policy in this area.
               According to USAID policy, all direct procurement is to be conducted in
               accordance with the Federal Acquisition Regulations and the USAID
               Acquisition Regulations.      New procurement requirements are to be
               implemented through Contract Information Bulletins when it is necessary to
               implement the change prior to formal amendment of acquisition regulations.




               2
                The RCO’s active portfolio of 66 instruments consists of 26 in Senegal, 18 in Guinea, 18 in
               Benin, and 4 in Sierra Leone.
                                                                                                          6
Audit Objective   In accordance with its fiscal year 2004 audit plan, the Regional Inspector
                  General/Dakar performed this audit to answer the following audit objective:

                  Did the Regional Contracting Office (RCO) located at USAID/Senegal
                  comply with USAID guidelines in providing contracting support?

                  Appendix I contains a complete discussion of the scope and methodology of the
                  audit.



Audit Findings    The Regional Contracting Office (RCO) located at USAID/Senegal followed
                  some USAID guidelines in providing regional contracting support. In
                  particular, the RCO followed USAID guidelines and applicable regulations as
                  they relate to bid solicitation and awarding of instruments, instrument file
                  maintenance, and certain aspects of contract administration, such as providing
                  support to Cognizant Technical Officers (CTOs) with contractual issues.
                  However, the support provided by the RCO was hampered by ineffective
                  electronic record keeping, and the office did not fully comply with certain
                  requirements related to evaluations of contractor performance and closeouts.

                  The RCO adhered to solicitation guidelines by following procedures in
                  creating Requests for Proposals and formulating evaluation criteria. It also
                  followed sole source award, exception to competition, and competition
                  guidelines. In addition, the RCO went through the Contract Review Board, as
                  required, for awards over $10 million. The RCO advertised solicitations by
                  posting them to the required internet sites (FedBizOpps.gov or FedGrants.gov)
                  or in newspapers, as applicable. In the awarding process, the RCO followed
                  USAID guidelines in evaluating proposals by:

                         1. giving the evaluation teams a briefing instructing them on the
                            evaluation process,

                         2. ensuring the proposals were fully evaluated based on the proper
                            criteria, and

                         3. making the final determination deemed in the best interest of
                            USAID.

                  In the administration area, the RCO provided effective and timely contracting
                  support while actively assisting CTOs by being prompt and responsive to their
                  needs and inquiries. The RCO was involved in contractual issues, such as
                  budget realignments, and processed modifications as necessary. It was
                  proactive in keeping informed of Strategic Objective (SO) activities (many of
                  which were being funded by the instruments awarded by the RCO) by


                                                                                              7
attending SO team meetings.           Furthermore, the RCO maintained
comprehensive instrument files in accordance with USAID guidelines.

Nevertheless, we identified the following weaknesses that should be addressed
to improve RCO operations.

Integrated Electronic Record Keeping
System Would Improve Reporting

    Summary: The RCO produced reports with errors and did not produce
    reports in a timely manner. Effective record keeping is emphasized in
    the Government Accountability Office’s Standards for Internal
    Control in the Federal Government. These errors occurred because
    the RCO did not have an electronic record keeping system that
    produced accurate and timely information. Without such a system, the
    RCO cannot be fully assured that correct information has been
    reported.

Several reports provided by the RCO contained errors, had missing data, and
were not provided in a timely manner. All but one of the six reports listing
instruments in either active, pending closeout, or closed out status obtained
from the RCO were inaccurate. The following are some examples of the errors
we encountered.

•     Report contained errors. The active listing for Senegal had incorrect
      expiration dates and award amounts. Two instruments out of 26 in the
      active listing had expiration dates of June 2005, when in fact they had
      already expired in June 2004, and should not, therefore, have been included
      in the active listing. Another instrument on the active listing had an
      incorrect award amount of $1,955,120 when it was actually $1,599,120.

•     Report included duplicates. The closeout listing for fiscal year (FY)
      2004 consisted of 17 instruments, of which 5 were selected as our sample
      for testing. Of these five, two were duplicates of two other instruments in
      the sample.

•     Report had missing data. The active listing of instruments for Senegal
      omitted a $26 million contract.

•     Report not provided on a timely basis. It took several weeks for the
      RCO to provide a complete listing of closeouts.

The Government Accountability Office’s Standards for Internal Control in the
Federal Government stresses the importance of accurate and timely record
keeping in maintaining effective internal controls. An entity must have

                                                                               8
relevant, reliable, and timely information and communications in order to run
and control its operations.

These errors occurred because an effective, integrated electronic record
keeping system was not being maintained, and information was not being
verified when the data was manually entered. The RCO maintained several
electronic files where individual records of instruments were moved manually
from one file to another during the contracting process as the status changed.
For example, when an instrument expired, it was deleted from the active file
and was manually re-entered into the pending closeout file; when an
instrument was completely closed out, it was deleted from the pending
closeout file and manually re-entered into the closed out file. In addition, the
files did not contain the same fields of information, so it was difficult to
compare or consolidate them with one another. According to the present
Contracting Officer, electronic records were not maintained by the RCO prior
to his arrival. Although the RCO has made improvements in record keeping
by implementing the use of electronic files for monitoring and reporting
activities, these files still do not provide accurate and timely information.

 Furthermore, lack of an integrated data base increases likelihood that
information will be altered at each re-entry. In addition, an integrated database
would facilitate data entry and verification. Without having an integrated
electronic record keeping system that produces relevant, reliable, and timely
data, the RCO increases its vulnerability of reporting inaccurate data and
cannot be fully assured that correct information has been reported. Therefore,
to address this weakness, we make the following recommendation:

       Recommendation No 1: We recommend that the Mission
       develop and implement an integrated contract information
       system based on a master database.

Evaluations of Contractor Performance
Need To Be Completed and Submitted

 Summary: The RCO did not complete and submit evaluations of
 contractor performance to the National Institutes of Health (NIH)
 Contractor Performance System (CPS) as required by the Federal
 Acquisition Regulation (FAR) and the Automated Directive System
 (ADS). This occurred because the RCO did not have procedures in
 place to ensure completion and submission of evaluations. The
 omission of evaluations could result in awarding of future contracts to
 undesirable parties.

From the universe of 66 active instruments, we selected 19 for testing. From
the 19 selected, 4 were contracts, all of which met the criteria of requiring
evaluations. Testing found that three of the four contracts did not have


                                                                               9
documented interim evaluations of contractor performance. One had an
interim evaluation completed but was not entered into the NIH CPS.

FAR 42.1502 and ADS 302.5.9 require that contracts in excess of $100,000 be
evaluated at least annually (for contracts exceeding one year in duration) and
on completion of activities. FAR also states that interim evaluations should be
prepared to provide current information for source selection purposes. Past
performance information is relevant information for future source selection
purposes regarding a contractor’s actions under previously awarded contracts.

The Contracting Officer (CO) maintained that he had not been giving the
CTOs the evaluation forms for completion. The CO also maintained that he
had not submitted the evaluations to NIH CPS due to a faulty password and
had not taken steps to resolve the matter. This occurred because the CO had
not developed specific procedures or assigned responsibility to staff to ensure
that evaluations were completed and submitted to NIH CPS.

Because past performance reports may be used to support future contract
award decisions, the omission of evaluations of contractor performance can
potentially result in the awarding of future contracts to undesirable parties.
Therefore, we make the following recommendation:

       Recommendation No 2: We recommend that the Mission
       develop specific procedures that include assigning
       responsibility for completing and submitting of contractor
       performance evaluations to the National Institutes of Health
       Contractor Performance System.

Expired Instruments Need to Be
Closed Out in a Timely Manner


 Summary: The RCO did not close out expired instruments in a
 systematic and timely manner as specified by FAR and the local
 Mission Order, because the RCO did not have procedures in place to
 monitor instrument close outs. By not closing out expired instruments
 in a timely manner, the RCO cannot be certain that funds are de-
 obligated appropriately.


The RCO had over 50 pending contract closeouts dating back as far as five
years. Of those, at least 30 had been initiated to be closed out between 2000
and 2003 but remained in suspense. As a part of the closeout process, the RCO
gave the file to the CTO and to the Office of Financial Management (OFM) to
get their recommendations and signatures for closeout. Most of these files
were pending (or in suspense) in OFM for several years. Moreover, no follow-
up had been done by the RCO to check on the status of these files.

                                                                            10
Also within the pending closeouts were two expired instruments with
combined unliquidated obligations of $318,140 that could have been closed out
in 2003. The closeout process had been initiated for these two instruments
because the RCO had sent release forms to the contractors. The contractors,
however, did not return the forms and because the RCO never followed-up on
these files, they remained in suspense. The RCO began to take action to
completely close out (which includes de-obligation) these two instruments
during our fieldwork.

In further review, we found that OFM was de-obligating funds from expired
instruments on their own initiative through separate, periodic reviews with the
approval of the CTO. There was, however, no coordination with the RCO,
which was unaware of these de-obligations. Nevertheless, the instrument files
remained in pending closeout status as a result of not having been through all
of the required channels.

FAR Subpart 4.804 and local Mission Order 216-13 provide time standards for
closing out instrument files. In general, firm-fixed-price instruments should be
closed out within six months after the date on which the contracting officer
receives evidence of physical completion. Furthermore, closeouts for grants
and cooperative agreements should occur within a reasonable time
commencing within 90 days of physical completion.

The RCO did not have procedures in place to close out instruments in a
systematic and timely manner. Prior to the arrival of the current Contracting
Officer in 2001, the Contracting Officer vacancy was filled by Temporary
Duty Contracting Officers who focused on current issues, and performing
closeouts was not a priority. As part of an Agency-wide initiative to close out
instruments, the current RCO was instrumental in initiating closeouts and
reducing the backlog. Despite this effort, the RCO did not close out expired
instruments in the required time per USAID guidelines because it did not
follow up to check on the status of the pending closeout files.

By not systematically and promptly closing out expired contracts, the RCO
cannot be certain that unexpended funds are de-obligated appropriately and
made available for other use.       Therefore, we make the following
recommendation:

          Recommendation No 3: We recommend that the Mission
          develop specific procedures that include assigning
          responsibility for actively monitoring and closing out
          expired instruments.




3
    Mission Order 216-1 “Contract, Grant and Cooperative Agreement Close-Out Procedures”
                                                                                           11
Evaluation of   In response to the draft report, USAID/Senegal agreed with all three of the
                findings and recommendations in the draft audit report. Based on appropriate
Management
                action taken by the Mission, management decisions have been reached on all
Comments        recommendations. However, the recommendations remain open and final
                action to close the recommendations should be coordinated with the Office of
                Management Planning & Innovation (M/MPI).

                Recommendation No. 1 proposes that the Mission develop and implement an
                integrated contract information system based on a master database. The Mission
                concurred with this recommendation and will identify an existing system or
                develop a system which will support, monitor, and track contracting
                information.

                Recommendation No. 2 states that the Mission develop specific procedures that
                include assigning responsibility for completing and submitting of contractor
                performance evaluations to the National Institutes of Health Contractor
                Performance System. The Mission agreed with this recommendation and will
                issue a written policy establishing detailed procedures that include assigning
                responsibility for completing and submitting the evaluations. In addition, the
                Mission will review the status of the evaluations during its semi-annual
                portfolio review.

                Recommendation No. 3 proposes that the Mission develop specific procedures
                that include assigning responsibility for actively monitoring and closing out
                expired instruments. The Mission concurred with this recommendation and will
                issue a written policy establishing adequate procedures to monitor the close out
                process. The procedures will include time frames for processing close-outs and
                emphasize authorities for de-obligating funds from expired instruments. In
                addition, the Mission will review the status of close outs during its semi-annual
                portfolio review.




                                                                                                12
                                                                                          Appendix I



Scope and     Scope
Methodology
              The Regional Inspector General/Dakar conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit was
              to determine if the Regional Contracting Office (RCO) located at
              USAID/Senegal complied with USAID guidelines in providing regional
              contracting support. The audit was conducted at USAID/Senegal in Dakar from
              August 18 to September 24, 2004.

              The scope of the audit included the review of selected active instruments from the
              universe of instruments under the cognizance of the RCO in Senegal, Guinea,
              Benin, and Sierra Leone. For active instruments, we reviewed a total of 19 active
              instruments4 with an estimated award value of $138 million out of the universe of
              66 active instruments with an award value estimated at $258 million. In addition,
              the audit included the review of 52 instruments that were pending closeout to
              determine timeliness of the closeout procedures. We selected a sample of 5
              instruments out of the 17 that were closed out in fiscal year 2004 to determine if
              the RCO was in compliance with prescribed closeout procedures.

              The audit also included examinations of internal controls, including segregation
              of duties and approvals associated with bid solicitation and contract awarding, the
              administration of instruments (which includes performance monitoring and
              financial administration), instrument file maintenance, and the contract closeout
              process. Management controls and guidance for contracting are included in the
              Automated Directive Systems, Federal Acquisition Regulations, and the
              USAID Acquisition Regulations, as well as Contract Information Bulletins,
              Acquisition & Assistance Policy Directives, and relevant local Mission Orders.

              Methodology

              The audit was designed to be broad and included review and testing from areas
              we deemed to be more significant with respect to the awarding and the
              administering of various types of instruments including, grants, cooperative
              agreements, and contracts. We reviewed and tested key controls in bid
              solicitation and contract awarding, administration (including Cognizant
              Technical Officer (CTO) roles and responsibilities plus vouchering),
              instrument file maintenance, and closeout procedures.

              For the sample in Senegal, we selected all active instruments with an award
              amount over $1 million. In addition, we selected a few of the higher dollar
              instruments from each of the cognizant countries but then narrowed our sample

              4
               The active instrument sample consisted of 16 from Senegal, 2 from Guinea, 1 from Benin,
              and 0 from Sierra Leone.
                                                                                                   13
down due to initial positive results of our testing of the active instruments in
Senegal and to the unavailability of CTOs.

In performing the audit, we reviewed and examined instrument files (those
maintained by the RCO and CTOs) against relevant criteria. While conducting
audit steps pertaining to CTO roles and responsibilities, we interviewed CTOs
associated with the judgmentally selected active instruments both in Senegal
and other countries served by the RCO. In addition, we held discussions with
financial specialists and other financial management staff to determine their
roles with respect to administering various types of instruments and to
document controls associated with vouchering and accruals processes.

While performing steps associated with bid solicitation and contract awarding,
administration, instrument file maintenance, and closeouts, we held discussions
with the Contracting Officer and other RCO staff to determine their roles and
responsibilities and to document various procedures used by the staff. We also
held discussions with the Regional Legal Advisor and other Strategic
Objective team members. In terms of materiality, we determined the
significance of each instance of non-compliance on a case by case basis.




                                                                             14
                                                                                              Appendix II

Management
Comments
                                                                  USAID/Senegal




Memo
        To:     Lee Jewell III, RIG/Dakar
        From:   Olivier Carduner, Director /s/
        Date:   February 1, 2005
        Re:     Audit of USAID/Senegal’s Contracting Operations, Report No. 7-685-05-00-X-P



This memo is to acknowledge receipt of the referenced draft audit report as well as to provide
Mission comments on the findings and recommendations therein.

Recommendation No. 1: We recommend that the Mission develop and implement an
integrated contract information system based on a master database.

USAID/Senegal is in agreement with this recommendation and will implement the following action
plan to address the weaknesses identified in the draft audit report:

Within six months of the date of this letter, the Information Management Team (INFO), under the
direction of the Deputy EXO, will consult with other USAID Missions to identify and implement a
data base system which will support, monitor, and track contracting information. If the Mission is
unable to identify an existing system, INFO will develop the system within eight months of the date
of this letter.

Recommendation No. 2: We recommend that the Mission develop specific procedures that
include assigning responsibility for completing and submitting of contractor performance
evaluations to the National Institutes of Health Contractor Performance System.

USAID/Senegal is in agreement with this recommendation identified in the draft audit report.
USAID/Senegal is neither completing nor submitting evaluations of contractor performance to
AID/W’s NIH computer data base contractor system (CPS) as required by the ADS 302.5.9 which
states that, “It is USAID policy that contracts in excess of $100,000, including individual task orders
under indefinite quantity contracts, must be evaluated at least annually (for contracts exceeding one
year in duration) and on completion of activities, as required by FAR 42.1502, except as provided in
FAR 42.1502(b).” The same ADS reference also states, “More frequent evaluations may be

                                                                                                     15
conducted if the Contracting Officer and Cognizant Technical officer determine them to be in the best
interests of the activity. “

Within sixty days of the date of this letter, the RCO will issue a written policy establishing detailed
procedures that include assigning responsibility for completing and submitting of contractor
performance evaluations to the National Institutes of Health Contractor Performance System. In
addition, the Mission will review the status of submitting contractor performance evaluations to the
National Institutes of Health Contractor Performance System in its semi-annual Mission Portfolio
Review.

Recommendation No. 3: We recommend that the Mission develop specific procedures that
include assigning responsibility for actively monitoring and closing out expired instruments.

USAID/Senegal is in agreement with this audit finding and recommendation identified in the draft
audit report. USAID/Senegal did not close-out expired instruments in a systematic and timely manner
as required by FAR and Mission Orders.

Within six months of the date of this letter, the RCO will develop adequate procedures to monitor the
close-out process. The procedures will include time frames for processing close-outs by the Office of
Financial Management (OFM) and CTO offices. In addition, the Mission will review the status of
close-outs in its semi-annual Mission Portfolio Review. This is thought to be necessary since the
auditors found that several close-out files or close-out forms were sent to OFM or the CTO offices
but were not returned to RCO. Furthermore, the procedures should highlight authorities for de-
obligating funds from expired agreements since the auditors found that OFM was de-obligating funds
from expired instruments without authorization of the RCO.




                                                                                                    16
